                                                      NATIONAL SCIENCE FOUNDATION                        I
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: 1-04090030
                                                                                       11           page/1 of 1



           OIG received information from the Federal Bureau of investigationi indicating that whi1:e
           conducting an unrelated investigation they had obtained information indicating that a sexual
           harassment lawsuit may have been settled using NSF funds from an award that closed in 2000~.
                                                                                                         I
           Our review of the award jackets identified several references3 to the possible use of NS? funds to
           settle a lawsuit filed by a former employee of the project. The information reviewed indicated
           that the matter was resolved in 1999.

           Additionally, we reviewed an audit report that was completed in January 1999 and found "the
           financial statements referred to above present fairly, in all material respects, the assets, liabilities
           and fund balances arising from the cash transactions of the project for the forty-one months
           ended January31, 1999....   994




           Although the time lapse since the award closed prevented us from locating the financial records
           for the award, the information contained in the jacket and the audit report indicate that this matter
           was reviewed at that time and found to be resolved.

           Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)

                                                                                                         A
